 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




  NEIGHBORHOOD CENTERS, INC.,
CLAIMED UNALLOWABLE HEAD START
            COSTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patricia Wheeler
                                                Regional Inspector General

                                                      September 2013
                                                       A-06-11-00055
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
September 26, 2013



Report Number: A-06-11-00055

Ms. Angela Blanchard
President and Chief Executive Officer
Neighborhood Centers, Inc.
4500 Bissonnet, Suite 200
Bellaire, TX 77401

Dear Ms. Blanchard:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Neighborhood Centers, Inc., Claimed Unallowable Head
Start Costs. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Michelle Richards, Audit Manager, at (214) 767-9202 or through
email at Michelle.Richards@oig.hhs.gov. Please refer to report number A-06-11-00055 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Angela Blanchard


Direct Reply to HHS Action Official:

Ms. Kimberly Chalk
Regional Program Manager, Region VI
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
1301 Young Street, Suite 937 West
Dallas, TX 75202

cc:
Ann Linehan
Deputy Director
Office of Head Start
Ann.Linehan@acf.hhs.gov

Yolanda Brown
Head Start Program Specialist
Office of Head Start
Yolanda.Wise@acf.hhs.gov
                                      EXECUTIVE SUMMARY

 Neighborhood claimed $287,571 in unallowable Head Start grant costs for calendar
 year 2010.

WHY WE DID THIS REVIEW

Because Office of Inspector General reviews have found that Head Start grantees claimed
unallowable costs and had significant internal control weaknesses, we are reviewing Head Start
grantees nationwide. Neighborhood Centers, Inc. (Neighborhood), received three Federal grants
totaling $21.6 million for calendar year (CY) 2010 to fund its Head Start and Early Head Start
programs: $16.6 million for its Head Start grant and a total of $5 million for two grants under
the American Recovery and Reinvestment Act (Recovery Act).

The objective of this review was to determine whether Neighborhood claimed Head Start grant
costs that were allowable under applicable Federal regulations.

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. For families who have incomes below the Federal poverty level,
Head Start and Early Head Start together serve children from birth to age 5 and pregnant women.
Federal regulations authorize Federal reimbursement to grantees for the cost of allowable Head
Start services. Within the U.S. Department of Health and Human Services, the Administration
for Children and Families, Office of Head Start (OHS), administers the Head Start program. In
fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations. The Recovery Act provided an additional $2.1 billion during FYs 2009 and 2010.

Neighborhood is a nonprofit agency with Head Start locations in the Houston, Texas, area. Of
the $16.6 million in Head Start grant costs claimed, we reviewed $1.2 million in costs.

WHAT WE FOUND

Neighborhood did not always claim allowable Head Start grant costs under applicable Federal
regulations for CY 2010. Of the $1,161,863 in costs we reviewed, $874,292 was allowable;
however, $287,571 was unallowable. Specifically, Neighborhood claimed $131,807 that was not
allocable to the Head Start grant and $155,764 that was not adequately supported. As a result,
Neighborhood received $287,571 in unallowable Federal reimbursement. Neighborhood
claimed the unallowable costs because it did not maintain adequate internal controls.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)         i
WHAT WE RECOMMEND

We recommend that Neighborhood:

    •   refund $287,571 in unallowable costs;

    •   revise its existing policies and procedures to ensure that all entries in the Head Start
        expense accounts are adequately reviewed, including for allowability, prior to posting
        them to the accounts; and

    •   develop written monitoring procedures to ensure that all expenses posted to the Head
        Start expense accounts are allowable.

NEIGHBORHOOD COMMENTS AND OUR RESPONSE

In written comments on our draft report, Neighborhood agreed that $108,491 should not have
been charged to the Head Start grant but disagreed that the remaining $192,177 of the $300,668
originally determined not to be allowable should be refunded.

After reviewing the additional documentation that Neighborhood provided, we determined that
$13,097 in salary and fringe benefit costs was allowable. We revised our findings and
recommendations accordingly. Nothing in Neighborhood’s comments caused us to change our
other findings or recommendations.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)          ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Head Start Program ..............................................................................................1
                 Neighborhood Centers, Inc. .................................................................................1

           How We Conducted This Review....................................................................................2

FINDINGS ...................................................................................................................................2

           Federal Requirements ......................................................................................................2

           Neighborhood Claimed Unallowable Costs.....................................................................3
                 Costs Were Not Allocable to the Head Start Grant .............................................3
                 Costs Were Not Adequately Supported ...............................................................3

           Neighborhood Lacked Adequate Internal Controls .........................................................4

RECOMMENDATIONS .............................................................................................................4

NEIGHBORHOOD COMMENTS AND OFFICE OF INSPECTOR GENERAL
 RESPONSE..............................................................................................................................5

           Costs Were Not Allocable to the Head Start Grant .........................................................5
                 Transferred Costs ..................................................................................................5
                 Other Costs Not Allocable ....................................................................................5

           Costs Were Not Adequately Supported ...........................................................................6
                 Administrative Rent Costs ....................................................................................6
                 Salary and Fringe Benefits Costs ..........................................................................6
                 Supply Costs .........................................................................................................7

           Neighborhood Lacked Adequate Internal Controls .........................................................7
                 Internal Controls ...................................................................................................7
                 Monitoring Procedures..........................................................................................7

OTHER MATTERS.....................................................................................................................8




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                                          iii
        Personnel Action Forms Not Used To Initiate Pay Increases ..........................................8

        Federal Cash Drawdown Procedures Not Followed ........................................................8

APPENDIXES

        A: Audit Scope and Methodology ..................................................................................9

        B: Related Office of Inspector General Reports ........................................................... 10

        C: Neighborhood Comments ........................................................................................ 11




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                      iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Because Office of Inspector General reviews have found that Head Start grantees claimed
unallowable costs and had significant internal control weaknesses, we are reviewing Head Start
grantees nationwide. Neighborhood Centers, Inc. (Neighborhood), received three Federal grants
totaling $21.6 million for calendar year (CY) 2010 to fund its Head Start and Early Head Start
programs: $16.6 million for its Head Start grant and a total of $5 million for two grants under
the American Recovery and Reinvestment Act (Recovery Act), P.L. No. 111-5.

OBJECTIVE

Our objective was to determine whether Neighborhood claimed Head Start grant costs that were
allowable under applicable Federal regulations.

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing
educational, health, nutritional, and social services. In 1994, the Head Start program was
expanded to establish Early Head Start, which serves children from birth to 3 years of age, to
promote prenatal care, enhance the development of infants and toddlers, and promote the healthy
functioning of families.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families, Office of Head Start (OHS), administers the Head Start program. In
fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The Recovery Act provided an additional $2.1 billion for the Head Start program during FYs
2009 and 2010. These funds were intended for activities such as expanding enrollment, funding
cost-of-living wage increases for grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Neighborhood Centers, Inc.

Neighborhood is a private nonprofit human services organization founded in 1907; its mission is
to bring resources, education, and connection to underserved neighborhoods. Neighborhood
operates Early Head Start and Head Start programs at eight free-standing centers in the Houston,
Texas, area. Additionally, Neighborhood offers home-based programs as well as programs at
school and childcare-based sites.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)       1
Neighborhood is funded primarily through Federal and State Government grants. For CY 2010,
OHS provided Head Start funds and Early Head Start funds to Neighborhood totaling
$16,593,829. For the same period, OHS provided Recovery Act grants to Neighborhood totaling
$4,993,962.

HOW WE CONDUCTED THIS REVIEW

For CY 2010, Neighborhood claimed $16,590,632 in Head Start grant costs. We limited our
review to a nonstatistical sample of Head Start grant costs totaling $1,161,863.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology. Appendix B contains a list of
related OIG reports on the Head Start and Early Head Start programs.

                                                 FINDINGS

Neighborhood did not always claim allowable Head Start grant costs under applicable Federal
regulations for CY 2010. Of the $1,161,863 in costs we reviewed, $874,292 was allowable.
However, $287,571 was unallowable. Specifically, Neighborhood claimed:

    •   $131,807 that was not allocable to the Head Start grant, and

    •   $155,764 that was not adequately supported.

As a result, Neighborhood received $287,571 in unallowable Federal reimbursement.
Neighborhood claimed the unallowable costs because it did not maintain adequate internal
controls.

FEDERAL REQUIREMENTS

Federal regulations (45 CFR part 74) establish uniform administrative requirements governing
HHS grants and agreements awarded to nonprofit organizations. As a nonprofit organization that
receives Federal funds, Neighborhood must comply with the cost principles at 2 CFR part 230. 1
These cost principles specify the criteria that costs must meet to be allowable. The HHS
awarding agency may include additional requirements that are considered necessary to attain the
award’s objectives.


1
  Cost Principles for Non-Profit Organizations (Office of Management and Budget Circular A-122), incorporated by
reference at 45 CFR § 74.27(a).




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                      2
NEIGHBORGHOOD CLAIMED UNALLOWABLE COSTS

Costs Were Not Allocable to the Head Start Grant

To be allowable under applicable Federal regulations, costs must be allocable to the award. 2

At the end of the grant year, Neighborhood staff transferred $102,418 in non-Head Start costs to
a Head Start grant expense account. The costs were not allocable to the Head Start grant because
they were for other programs that Neighborhood operated (e.g., charter schools). The transferred
costs were for items and services such as textbooks, laptop computers, and printing for non-Head
Start students.

In addition, throughout the year, Neighborhood claimed $29,389 that was not allocable to the
Head Start grant. The costs were for dance school classes for charter school students, business
cards for charter school administration staff, rent related to the Recovery Act grant, electrical
maintenance for a non-Head Start facility, management and general costs that were incorrectly
allocated to the Head Start grant, and employee salary overpayments.

As a result, Neighborhood received $131,807 of unallowable Federal reimbursement that did not
benefit the Head Start program.

Costs Were Not Adequately Supported

Grantees’ accounting records should be supported by source documentation. 3

Neighborhood’s cost allocation plan requires that it prepare supporting schedules showing the
allocation of rent costs for its administration buildings, which were shared by multiple programs.

Neighborhood claimed rent and supply costs that were not adequately supported by source
documentation, or the documentation did not clearly indicate whether the costs were for Head
Start.

Neighborhood claimed rent costs totaling $139,591 for one of its administrative buildings. For 9
months of the grant year, Neighborhood charged 100 percent of rent costs totaling $109,275 to
the Head Start grant. However, documentation we reviewed showed that employees of non-
Head Start programs also worked in the building. For the remaining 3 months of the year,
Neighborhood charged $30,316 to the Head Start grant, which represents 83 percent of the rent
costs for those months. Neighborhood did not provide any support for the allocation.

Neighborhood claimed $16,173 in supply costs that was not supported by any source
documentation, or the supporting documentation did not clearly indicate whether the costs were


2
    2 CFR, part 230, Appendix A, paragraph A.2.a.
3
    45 CFR § 74.21(b)(7).



Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)           3
for Head Start. These costs, which Neighborhood originally charged to charter school expense
accounts, were transferred to a Head Start grant expense account at the end of the grant year.

As a result, Neighborhood received $155,764 in unallowable Federal reimbursement.

NEIGHBORHOOD LACKED ADEQUATE INTERNAL CONTROLS

Neighborhood claimed the unallowable costs because it did not maintain adequate internal
controls to ensure that it claimed only allowable Head Start grant costs. Specifically,
Neighborhood:

       •    did not always follow its existing policies and procedures requiring that all entries to the
            accounting system be reviewed by the senior accounting manager or controller and

       •    did not have adequate monitoring procedures to ensure that all expenses posted to the
            Head Start expense accounts were allowable.

Neighborhood’s accounting policies and procedures manual specifies that each entry in the
accounting system will be reviewed and approved by the senior accounting manager or the
controller. The accounting manual also states that all general journal entries will be supported by
general journal vouchers with supporting documentation attached and will be approved by the
senior accounting manager or controller. Additionally, Neighborhood staff explained that budget
analysts, as well as accounting staff, periodically monitor the expense accounts for each program
to ensure accurate classification of program costs.

For example, Neighborhood staff used a year-end journal entry to reclassify $118,591 in non-
Head Start costs as Head Start grant expenses. 4 The supporting documentation showed that a
general ledger accountant prepared the journal entry. The entry was initialed and stamped
“posted” by the controller. However the controller or senior accounting manager had not
adequately reviewed the entry for allowability prior to it being posted in the accounting
system. Additionally, Neighborhood’s expense account monitoring procedures did not identify
the unallowable costs.

Neighborhood could have prevented or detected the unallowable costs by ensuring that (1) all
entries to the Head Start expense accounts were adequately reviewed for allowability prior to
posting them to the accounts and (2) all expenses posted to Head Start expense accounts were
adequately monitored for allowability.

                                            RECOMMENDATIONS

We recommend that Neighborhood:

       •   refund $287,571 in unallowable costs;

4
    The $118,591 includes $102,418 in costs that were not allocable and $16,173 in costs that were not supported.



Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                           4
    •   revise its existing policies and procedures to ensure that all entries in the Head Start
        expense accounts are adequately reviewed, including for allowability, prior to posting
        them to the accounts; and

    •   develop written monitoring procedures to ensure that all expenses posted to the Head
        Start expense accounts are allowable.

NEIGHBORHOOD COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, Neighborhood agreed that $108,491 should not have
been charged to the Head Start grant but disagreed that the remaining $192,177 of the $300,668
originally determined not to be allowable, should be refunded. Neighborhood’s comments,
along with additional documents Neighborhood supplied, are included as Appendix C. We did
not include two of the documents because they contain personally identifiable information.

COSTS WERE NOT ALLOCABLE TO THE HEAD START GRANT

Transferred Costs

Neighborhood Comments

Neighborhood agreed that $86,083 of the $102,418 in costs was not allocable. Neighborhood
stated that the error occurred because a journal entry was misclassified and that it was an isolated
incident. For the remaining $16,335, Neighborhood asserted that these costs were solely
allocable to the Head Start grant ($565) or funded dual enrollment classrooms of charter school
and Head Start children ($15,770). Neighborhood provided Exhibits A and C with a list of
transactions that they contend were allocable. Additionally, Neighborhood stated that supplies
were included in the approved budget, as noted in Exhibit B.

Office of Inspector General Response

During the audit, we reviewed the supporting invoices and documentation for the transactions
listed in the exhibits to make the determination that they were not allocable to the
program. Neighborhood’s response did not change our determination. Additionally, the funding
document provided in Exhibit B is not for the grant we reviewed. We reviewed grant award
number 06CH6999, which covers CY 2010; the exhibit grant award number is 06SH6999, a
Recovery Act grant covering September 2010 through September 2011.

Other Costs Not Allocable

Neighborhood Comments

Neighborhood agreed that $9,636 of the $29,389 in costs was not allocable. For the remaining
$19,753 in rent costs, Neighborhood stated that the costs were appropriate Early Head Start
expenses. Neighborhood provided Exhibit D to support the rent costs.



Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)          5
Office of Inspector General Response

During the audit period (CY 2010), Neighborhood received a Recovery Act grant award that also
included Early Head Start funding. The rent for the building increased $4,938 starting in April
2010. Neighborhood charged the first 4 months of the rent increase (April through July 2010),
totaling $19,753, to the Head Start grant we reviewed. When we asked Neighborhood about the
increase in cost for those months, Neighborhood officials responded in writing that the increase
should have been charged to the Recovery Act grant, not the grant we reviewed. Additionally,
the rent increase was not charged to the Head Start grant for the remaining months of the year.
Neighborhood’s response did not change our determination.

COSTS WERE NOT ADEQUATELY SUPPORTED

Administrative Rent Costs

Neighborhood Comments

Neighborhood disagreed that the $139,591 in rent costs related to the administrative building was
not adequately supported. Neighborhood maintains that all employees housed in the
administrative building worked solely for the Head Start program with the exception of
instructional coaches who were on site one time per week working with dually enrolled Head
Start and charter school children. Neighborhood provided Exhibit E, 5 which lists all of the 56
Head Start employees who worked in the administrative building in 2010. Neighborhood stated
that it had allocated rent costs based on the percentage of staff that worked for Head Start and
Early Head Start Expansion.

Office of Inspector General Response

During the period that Neighborhood states that the building housed only Head Start staff,
Neighborhood allocated telephone costs for that building to other programs. The supporting
documentation provided for the telephone allocation included personnel who worked for other
programs. Additionally, Neighborhood’s allocation policy requires that facility costs be based
on square feet, not percentage of staff. Neighborhood’s response did not change our
determination.

Salary and Fringe Benefits Costs

Neighborhood Comments

Neighborhood disagreed with the finding regarding the $13,097 in salary and fringe benefit
costs. Neighborhood provided Exhibit F, 6 which includes an electronic submission of the
employee’s time and a signed affidavit by the employee.

5
    We did not include Exhibit E because it contains personally identifiable information.
6
    We did not include Exhibit F because it contains personally identifiable information.



Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)        6
Office of Inspector General Response

After reviewing the additional documentation provided, we allowed the $13,097 in salary and
fringe benefit costs. We revised our findings and recommendations accordingly.

Supply Costs

Neighborhood Comments

Neighborhood agreed that $12,772 of the $16,173 in supply costs was unsupported. For the
remaining $3,401 Neighborhood asserted that these costs were solely allocable to the Head Start
grant ($852) or funded dual enrollment classrooms of charter school and Head Start children
($2,549). Neighborhood provided Exhibit G, which lists transactions that it contends were
allocable. Additionally, Neighborhood stated that supplies were included in the approved
budget, as noted in Exhibit B.

Office of Inspector General Response

During the audit, we were not provided with supporting documentation for the transactions listed
in the exhibit. Without invoices or other supporting documentation, we are unable to make a
determination that the costs are allowable. Neighborhood’s response did not change our
determination. Additionally, the funding document provided in Exhibit B is not for the grant we
reviewed. We reviewed grant award number 06CH6999, which covers CY 2010; the exhibit
grant award number is 06SH6999, a Recovery Act grant covering September 2010 through
September 2011.

NEIGHBORHOOD LACKED ADEQUATE INTERNAL CONTROLS

Internal Controls

Neighborhood Comments

Although Neighborhood disagreed that it lacked adequate internal controls, Neighborhood stated
that since 2010, it has taken measures to improve its internal control structure. These measures
include increasing its staff resources, assessing segregation of duties and existing controls,
revising policies and procedures, and implementing a new accounting system to allow for more
effective reporting.

Monitoring Procedures

Neighborhood Comments

Neighborhood agreed that written monitoring procedures should be developed. Neighborhood
stated that it has compliance staff working with accounting staff to develop and improve internal
control processes through workflow analysis and process improvement.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)         7
                                          OTHER MATTERS


PERSONNEL ACTION FORMS NOT USED TO INITIATE PAY INCREASES

Grantees’ accounting records should be supported by source documentation (45 CFR §
74.21(b)(7)). In addition, grantees must establish and maintain efficient and effective record-
keeping systems to provide accurate and timely information regarding staff (45 CFR § 1304.51
(g)).

According to Neighborhood’s accounting policies and procedures, pay rate changes should be
initiated with Personnel Action Forms and authorized by the director of human resources.

Neighborhood did not prepare Personnel Action Forms in a timely manner to support pay rate
increases. Neighborhood processed annual pay increases for 2008 through 2010 that affected the
salaries in our audit period. Neighborhood provided Personnel Action Forms for the 139
employees whose salary costs we reviewed; however, 75 of these forms were created and
approved after we requested them (approvals dated in December 2011). The 75 forms reflected
pay increases totaling $137,662 annually. Therefore, Neighborhood did not maintain payroll
records that were adequately documented in a timely manner.

FEDERAL CASH DRAWDOWN PROCEDURES NOT FOLLOWED

Guidance issued by the HHS Program Support Center, Division of Payment Management,
required Neighborhood to draw down funds from a specific Payment Management System
(PMS) account to fund Head Start grant expenditures. Similarly, Neighborhood was required to
draw down funds from another PMS account to fund Recovery Act grant expenditures.
Regulations state that cash advances must be timed in accordance with the actual, immediate
cash requirements of the recipient organization in carrying out the purpose of the approved
program or project (45 CFR § 74.22).

Twice during CY 2010, Neighborhood incorrectly drew down funds totaling $291,257 from the
Head Start grant’s PMS account that should have been drawn from the Recovery Act grants’
PMS account ($122,647 in June and $168,610 in September). The supporting documentation in
the drawdown files indicated that Neighborhood withdrew the funds for Recovery Act grant
expenditures rather than Head Start grant expenditures.

As a result, at times during the year, Neighborhood may have had more Head Start grant funds
on hand than it needed for grant purposes. Neighborhood officials stated that the funds were
drawn down from the wrong account due to a clerical error and that funds were available to
support all Recovery Act expenditures. Neighborhood officials further explained that, after
discovering that these errors had occurred, Neighborhood corrected the errors by drawing down
less funds from the Head Start grant’s PMS account (and more funds from the Recovery Act’s
PMS account) for the remainder of the grant period.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)         8
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CY 2010, Neighborhood claimed $16,590,632 in Head Start grant costs. We limited our
review to a nonstatistical sample of Head Start grant costs totaling $1,161,863.

We did not perform an overall assessment of Neighborhood’s internal control structure. Rather,
we reviewed only the internal controls that pertained directly to our objectives. Our review
period was CY 2010.

We performed our fieldwork at Neighborhood’s administrative offices in Houston, Texas.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed grant award documentation to determine Neighborhood’s Federal funding;

    •   reviewed Neighborhood’s written internal control procedures related to accounting,
        procurement, property, personnel, consultants, and budgeting;

    •   interviewed Neighborhood’s management to gain an understanding of Neighborhood’s
        internal control procedures related to accounting, procurement, property, and personnel;

    •   reconciled the costs Neighborhood claimed on its final Federal Financial Status Report to
        its general ledger; and

    •   selected a nonstatistical sample of costs claimed and tested them for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)          9
       APPENDIX B: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                              Report          Date
                       Report Title                                           Number         Issued
Center for Community and Family Services, Inc., Did Not                    A-09-11-01006    06/19/13
Expend Head Start Funds in Accordance With Federal
Requirements

Not All of the Young Women’s Christian Association of                      A-07-11-02762    04/25/13
Metropolitan St. Louis Head Start Expenditures Were
Allowable
Southeastern Tidewater Opportunity Project, Inc., Head Start               A-03-11-00501    02/28/13
Program Claimed Unallowable Costs for Grant Year April 1,
2010, Through March 31, 2011
Neighborhood House Association Claimed Allowable Head                      A-09-11-01015    02/20/13
Start Costs but Did Not Maintain Adequate Internal Controls
Related to Personnel, Facilities, and Subcontracts
The Child Development Council of Acadiana, Inc.’s, Financial               A-06-11-00031    09/27/12
Management Practices and Systems Did Not Always Meet
Federal Requirements
Economic Opportunities Development Corporation of Atascosa, A-06-11-00034                   09/06/12
Karnes, and Wilson Counties’ Financial Management Practices
and Systems Did Not Always Meet Federal Requirements
The Columbus Urban League Claimed Some Unallowable          A-05-11-00053                   09/05/12
Costs to Head Start

Cenla Community Action Committee’s Financial Management                    A-06-11-00032    08/15/12
Practices and Systems Did Not Always Meet Federal
Requirements

William Smith, Sr., Tri-County Child Development Council,                  A-06-11-00036    08/01/12
Inc.’s, Financial Management Practices and Systems Did Not
Always Meet Federal Requirements

Lake County Family YMCA Claimed Unallowable Early Head                     A-05-11-00055    07/17/12
Start Costs

First A.M.E. Child Development Center’s Head Start Program                 A-09-11-01003    06/13/12
Governance Was Not Fully in Accordance With Federal
Requirements




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)          10
                             APPENDIX C: NEIGHBORHOOD COMMENTS 





      September 6, 2013



      Patricia Wheeler
      Region al Inspector Genera l for Audit Services
      Office of Aud it Services, Region VI
      1100 Commerce Street, Room 632
      Dallas, Texas 75242


      Report Number: A-06-11-00055 August 2013



      Dear Ms. Wheeler:

      Enclosed is the Neighborhood Centers' response to the Office of Inspector General (OIG) draft repor t entitled
      Neighborhood Centers, Inc. Claimed Unallowable Head Start Costs.

      If you have any questions or comments regarding this report, please contact me by phone at (713) 669-5371 or by ema il
      at krummel@neighborhood-centers.org.




      Respectfully,




      Kirk Rummel
      Chief Financial Officer
      Neighborhood Centers Inc.




      Enclosures

      cc Angela Blanchard




      Neighborhood centers Inc.           A United Way Agency   People Transforming Communities. FOR GOOD.




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                      11
      Neighborhood Centers Inc. Response to OIG Findings and Recommendations


      Report Number: A-06-11-00055 ·August 2013

      This communication is in response to the Office of Inspector General (O IG ) draft report entitled Neighborhood Centers,
      Inc. Claimed Unallowable Head Start Costs dated August 8, 2013. The following statements reflect t he concurrence or
      non-concurrence with the OIG findings and recomme ndations:




      I. Recommendation One: Refund $300,668 in unallowable costs

              A. Neighborhood Centers Inc. (NCI) claimed unallowable costs which were not allocable to the Head Start
              grant


              1.) NCI does not concur with the finding regardi ng the transfer of $102,418 in non-Head Sta rt costs to a Head
              Start grant expense accou nt. Upon thorough review of the supporting documentation, the following was
              determined as summarized below:

              (a) As noted in Exhibit A, $564.43 of consumables purchased solely for the Head Start program are allowable.
              Supplies are included in the approved budget for FY2010 as noted in Exhibit B.

              (b) As noted i n Exhibit C, $15,770.12 of consumables p urchased for classrooms that have a dual enrollment of
              Promise Community School and Head Start children are allowable costs. This dual enrollment leverages
              fund ing to allow Neighbor hood Centers to offer a seven-hour day at its Head Start centers and also ensures
              that all children in t he center-based program are taught by a degreed and certified teacher. Additionally, dual
              enrollment allows longitudinal tracking of academic progress into elementary school through the assignment of
              unique numerical identifiers used by the state educationa l agency. For the core Head Start program, supplies are
              necessary for day-to-day activities and would be pu rchased f or Head Start regardless of organizational structure.
              Supplies are i ncluded in the approved budget for FY 2010 as noted in Exhibit B.

              All expenses charged to Head Start benefit children enrolled in the Head Start program. Account codes
              document the locat ion of the purchase requestor, rathe r than the location at which the p urchase will be used .
              For example, a Head Start administration staff assigned to central services may place an office supply ord er for
              mul tiple centers where duall y-enrolled children are located ; the account code may reflect t he central services
              location rather than the d ual-enrollment location.

              NCI asserts tha t $16,334.SS of the $102,418 are al lowable costs which are allocable to the Head Sta rt gra nt.


              NCI concu rs that $86,083 of consumables purchased for classrooms that were not for Head Start or dual
              enrollment classrooms should not have been supported by Head Start funds.


              NCI professes that the misclassification of the journal entry which t ransferred expenses was an isolated incident
              whereby the staff responsible for reviewing the docu me ntation for the expenses overlooked the description
              deta il.



      NCI Response to OIG Report A-06-11-00055- August 2013                                                                 Page 1




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                            12
             2.) NCI does not concur with the finding that $29,389 in costs (throughout the year) were not allocable to the
             Head Start gra nt. Of the mont hly renta l fee of $12,438 for the Kingdom Builders property, $7,500 is for Head
             Start and the $4,938 is the portion o f the rent related to Early Head St art. Exhibit D is a listing of monthly rent
             payments which includes Kingdom Builders. The $4,938 portion for the four months of April 2010 to July 2010
             to taling $19,753 is appropriate as it is an Early Head Sta rt expense. The remaining $9,636 of the $29,389
             represents disputed costs that shou ld not have been supported by Head Start funds.


             Corrective Action: NCI has taken measures to prevent and detect unallowable costs by ensuring that all
             expenses posted to Head Start expense accounts are adequately monitored for allowability. Furthermore, all
             entries to Head Start expense account s are reviewed by the Controller or Senior Accounting staff prior to
             posting to the general ledger. Budget versus actua l reports are reviewed wi th the Head Start Direct o r monthly
             and any inconsistencies and materia l variances are identified and addressed.



             B. Neighborhood Centers Inc. (NCI) claimed una llowable costs which w ere not adequately supported

             1.) NCI does not concur tha t rent costs related to an administration building were not adequately supported.
             Rega rding the $139,591 of rent claimed for the Aramco Building, NCI has charged rent costs to Head Start as this
             site served as the Head Start/Early Head Start Administrative office prior to the move to the Savoy location. NCI
             maintains that all employees housed in the Aramco Building worked solely for the Head Start program w ith the
             except ion of inst ructional coaches who were on site one time per week. These i nstructional coaches worked
             with dually enrolled students who were either enrolled solely in Head Start or Charter School Without Walls. At
             no time did the instructors work with stude nts not in the Head Start or Charter School Without Walls programs.
             Exhibit E lists all employees w ho worked in the Administratio n build ing in 2010. Therefore, NCI maintains that it
             was reasonable to allocate one hundred percent o f the rent charges for the Aramco Building to the Head Start
             program for nine months of the year (January 2010 to Sept ember 2010). The allocation of only eighty-three
             percent of t he rent charged to the Head Start program for the remaining three months of the year (October
             2010 t o December 2010) is also appropriate since the seventeen percent was supported by carryover funds
             awarded for expansion of Head Start and Early Head Start programs. NCI began allocating ce ntral staff to t he
             ARRA expansion grant in October of 2010. This is when Early Head Start expansion began. NCI's efforts were to
             appropria tely allocate funds to proper funding streams. The basis for the allocatio n is noted below and is based
             on staffing for Head Start and Early Head Start Expansion:

                      Budgeted Staffing             # of Employees % Allocation
                      HS Base Staffing                 264             ,       83%
                                                                       r
                      HS Expansion Staffing .,.--__;5:..4.:......_ _,,.--1:...:7....:o/c.:.o- -. 

                                                             318                  100% 


             Head Start administ rative staffs were collectively moved into four locations between 2009 and 2012. These staff
             was not comingled with other staff and all we re moved together as a tea m. Due to the frequency of the moves
             during this period, not all locatio n codes for each staff were immediately updated. However, these staff
             performed d ut ies solely for Head Start and their salaries and related fringes were properly charged to Head St art
             regardless of their location code. Promise Community Charter School and Early Child Development
             administrative staffs in NCI's education division are charged t o t he campus/location where t hey have oversight
             responsibilities. These staff did not move with o r share offices w ith Head Start administrative staffs.


      NCI Response to OIG Report A-06-11-00055- August 2013                                                                   Page 2




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                              13
              2.) NCI does not concur with the finding regarding the $13,097 in salary and fringe benefit costs. The employee
             documented the time she wo rked o n the Head Start grant as noted in Exhibit F which is an electron ic
             submission of her time referred to as a Timecard View and Report with Supervisor Approval. This employee's
              ti me is charged 100% to Head Start as evidenced by Exhibit F which includes a signed affidavit by the
             emplo yee . Therefore, the salary and fringe be nef it costs charged to Head Start is appropriate and NCI should not
              refund these costs.

              3.) NCI does not concur with the all of t he findings t hat $16,173 of supply costs were not supported by source
             document at ion. Exhibit G lists supply costs o f $852.08 purchased sole ly fo r Head Start as well as $2,549.41 of
             expenses for dual e nrollment in Charter School and Head Start. As noted previously, items purchased for
              classrooms that have a dual enrollment of Promise Community School and Head Start children leverage
              funding to allo w Neighborhood Centers t o offe r a seven-hour day at it s Head Start centers. It also ensures t hat
             all ch ildren in the cent er-based program are taught by a degreed and certified teacher. For the core Head Start
              program, supp lies are necessa ry for day to day activities and would be pu rc hased whether or not the Head Start
             ch ildren were benefi tting from d ual enroll me nt. Supplies are included in t he approved budget for FY2010 as
              noted in Exhibit B.

              NCI asserts tha t $3,401.49 of the $16,173 are allowable costs supported by source documentation which are
             allocable to the Head Start grant.


             Corrective Action: NCI has taken measures to prevent and detect unallowable costs by ensuring that all
             expenses posted to Head Start expense accounts are adequately monit ored for allowability. Fu rthermore, all
             entries to Head Start expense accounts are reviewed by the Controller o r Senior Accou nting sta ff prior to
              posting to the general ledger. Budget to act ual repo rts are reviewed w ith the Head Start Director monthly and
             any inconsistencies and material variances are identified and addressed. NCI has alrea dy addressed the
              personnel activity report issue by implementing an electronic time and a ttendance program which capt u res
             each department/program in which an employee works in. NCI has also increased resources in infrastructu re
             and i mplemented efficiencies in processes to ensure that all costs are supported by adequate documentation.
             This includes human resource staf f dedicated to Head Start staffing compliance and additional Payroll, Billing,
              Accounts Payable and Treasury staff.



      II. Recommendation Two: Revise existing policies and procedures to ensu re t hat all entries in the Head Start expense
      accounts are adequately reviewed, including for allowability, prior to posting them to the accounts.

             A. Neighborhood Centers In c. (NCI) lacked adequate internal controls


             1.) NCI does not concur t hat it lacked adequate int ernal controls. An independent audit o f NCI's financial
             statements for 2010, 2011 and 2012 did not identify any deficiencies in internal control that are considered to
              be ma te rial weaknesses. Since 2010, NCI has taken measures to improve its internal control structure by
              increasing its sta ffing resources, assessing segregation of du t ies and existing controls, re vising policies and
              procedures, and imp lementing a new accounting syst em to allow for more effective reporting. NCI has
             aggressively mainta ined good internal control systems and endeavors to comply w ith laws and regu lations and
             accurately report fina ncial results.




      NCI Response to OIG Repor t A-06-11-00055- August 2013                                                                        Page 3




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                                    14
      Ill. Recommendation Three: Develop written monitoring procedures to ensure that all expenses posted to the Head
      Start expense accounts are allowable.

             NCI concurs that written mo nitoring procedures shou ld be developed to ensure all expenses posted to the Head
             Start expense accounts are all owable . NCI con tinuously works to improve internal controls. In total, NCI has
             approximately 130 accounting policies and procedures. In 2013 al one, fort y o f t hese policies and procedures
             have been revised and four were newly created. In addition, Compliance staff work with Account ing staff to
             develop and improve internal control processes through workflow ana lysis and process improvement. NCI
             strives to administer Head Start programs w ith effective interna l controls and has taken measures to enhance
             work per formance through training and technical assistance via conferences and webinars. For example, NCI
             employees from Head Start, Accounting, Budget, Compliance and Procureme nt departments attended a tw o day
             traini ng in 2013. This t raining was an In -Depth Review o f the OMB Circulars. The content covered the following:

             Day 1: O MB Administrative Requirements - 2 CFR Part 215 (OMB Circular A-110, and the Common Rule)
             including f inancial management system req uirements and controls, equ ipment, budgeting, and procurement.

             Day 2: OMB Cost Principles- 2 CFR Part 230 and 2 CFR Part 225 (OMB Circular's A-122 and A-87) includ ing
             general criteria for al l cost s, allowable and unallowable costs, and cost allocation.



      IV. OTHER MATTERS

             1.) OIG states t hat personnel action forms were not used to initiate pay increases. In 2010, an agency wide
             salary increase was given to employees as part o f a cost of living adjustment which Human Resources prepared
             o n one docum ent rather than reflecting t hese changes on 75 individual personnel action forms. These pay
             increases were approved by Human Resources and the Board of Directors. NCI believed that the salary
             approvals by Human Resources and the Board of Directors were adequate documentation of the pay rate
             cha nges. Per the request o f t he OIG auditors during their visit, NCI docu men ted these increases o n personnel
             action forms.

             In June 2013, NCI bega n ut ilizi ng an aut omated system to reflect all personne l changes. All personnel changes
             init iated by supervisors and approved by Human Resources w ill be reflected electronically.

             2.) OIG states that federal cash drawdow n procedures were not followed. At no time did NCI have additional
             funds on ha nd. Funds were drawn down inadvertently f rom the Head Start account instead o f from the Head
             Start funds provided by the Recovery Ac t PMS account. NCI subsequently correct ed t he drawdown errors by
             requesting fewer f unds from the Head Start grant. NCI has a three day cash process which is used as a tool
             to m onit or cash advances and minimize excess cash. NCI's management and billing staff coordinate with
             program staff to accurately project the cash needs to minimize the time lapse between the receipt of fu nds
             and the disbursal o f those funds. As a result of t he excess cash ana lysis and compar ison of amounts
             advanced with actual expendit ures, NCI effectively controls cash-on -ha nd levels.




      NCI Response to OIG Report A-06-11-00055- August 2013                                                                Page 4




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                           15
      V. Closing Remarks



             Neighborhood Centers Inc. has consistently operated w ith a commitment to compliance w ith laws, regulations,
             and program requirements. Since 95% of the Agency's $266 million of revenue is derived from fede ral/state
             programs, the Agency is highly regulated. Neighborhood Centers has inves ted in infrastructure that supports this
             commitment, with hig hly quali fied individuals who understand the ir ro les in p ro tecting f under and donor
             interests.

             Neighborhood Centers' f inancial statements are audited each year by an independent audit firm and have
             consistently resul ted in an unqualified report. Similarly, A-133 audits are conducted f or all major programs.
             Neighborhood Centers' Board o f Directors (and Board Committees) ope rates with the same conviction to
             excell ence and compliance in the ir ro les as management. The Board (and Com m ittees) is "hands on" in terms
             of overseeing management's compliance approach and monitoring results for the Agency. Frequent and focused
             monitoring efforts are keys to maintaining proper and effective internal controls. Each month the Finance and
             Adm inistration Committee and the Choices in Education Committee (which oversees Head Start) review monthly
             financial results, actual to budget variance explanatio ns, key program metrics, and program performance
             measures that go beyond statutory requirements. Parents w ho have volunteered t o serve on the Head Start
             Policy Council and the members of the Finance Subcommit tee also provide monthly ove rsight and have a key
             role in deciding how funds are spent (wit hin the regulations). Each prog ram has monthly staff accountability
             meetings, led by program directors, w hich includes review of all measu reable outcomes . Before monthly
             reports are prepared, the Controller, CFO, Accounting, and Budgeting staff review actual t o budget reports
             and ide ntify/va lidate the business reason for all mate ria l variances. This review is conducted for each
             program. As part of the process, all invoices and purchase orders are reviewed by Budget Analysts
             assigned to each program t o ensure all items coded to a program are properly approved, within budget, and
             are coded and all ocated properly.

             NCI will continue to work diligently to maintain strong controls and affirm our commitment to sound fina ncial
             practices and accountability.




      Response submitted by Neighbor hood Centers Inc. on Friday, September 6, 2013




      NCI Response to OIG Report A-06-11-00055- August 2013                                                                   Page 5




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                              16
~ 

~ 
                                                                                                    EXHIBIT A · referenced on Page 1 of NCI Response on I.A.1 .(a)

....~
g        Neighborhood Centers, Inc.
         Breakdown of Questioned Costs - NCI deems A llowab le as Head Start expense
~
Q        A-06-11-00055

~-       NOTE: Of the $102,418 in non-Head Start costs, $564.43 are consumables purchased solely for the Head Start grant.
"'
~
~
~
c!Q•
i5:
~
[        G/L Account                Posting Date
                                                             TRANSACTIONS/PAYROLL
                                                                 DESCRIPTION                Expense Amount           Program                         Description
Q
         117-110-1-10-6415          12/31 /2010         Crystal Chi ldren & Teacher Supplies $      197.61 Head Start                       Pre-K School Supplies
i
_t;;     117-110-1-10-6415          12/31 /2010         Lakeshore Learning Materials         $      166.82 Head Start                       Classroom supplies
         117-110-1-10-6415          12/31 /2010         Lakeshore Learning Materials         $      200.00 Head Start                       Classroom supplies
~
t·                                                                                          $       564.43
sr

a_§~
~
~
~
I


~
......
......

~
~




                  NCI Response to OIG Report A-06-11 -00055 August 2013                                                                                  Page 1 of 1
......
'I
                                                           EXHIBIT 8 - referenced on Page 1 o f NCI Respon se in I.A. I .(a), I.A.I .(b), a nd Page 3 1.8.3.

                                                                            1.RECIPIENT                                  SAl NUMBER;

                   . Department of Health and Human Services
                       Administration for Children e n d Families                                                        PMS DOCUMENT NUMBER:
                            Financial AS$Istance Award IFAAI                                                             06SH099902

         1. AWARDING Ofl'ICE:
         OA/OGM/Aegion VI
         5. TYPE OF AWARD:                      ,6. TYPE OF ACTION:
                                                                          2. ASSISTANCE TYPE:
                                                                             Disctedonarv Grant          I   3. AWARD NO.:
                                                                                                              06SH6999/02
                                                                                             17. AWARD AVTHORITY:
                                                                                                                                          14. AMEND; NO.:



             SERVICE                                 Revision (•)                              Amotlcan Recovery and Reinvestment Act of 2009
         8. BUDGET PERIOD:                                   19. PROJECT PERIOD:                                   110. CAT NO./CFDA:
               09/30/2010        THRU       09/29/2011                09/30/2009       THRU       09/29/2011                  93.708 ...
         11. RECIPIENT ORGANIZATION:                                                                  12. PROJECT I PROGRAM TIT1..E;
         Neighborhood Centers. inc.                                                                  Head Start ARRA Expansion
         4500 Bissonnet, Suite 200
         Bellaire TX 77 277 1389
         Vicki Birenbaum, Boord Chair


         13.COUNTY:
            HARRIS
                                                114. CONGR. DIST:
                                                     25
                                                                               J  15. PRiftCIPAL INVESTIGATOR OR PROGRAM DIRECTOR:
                                                                                       Angela B"'nchard , President end CEO

                        16. APPROVED BUDGET:                                                       11. AWARD COMPUTATION:
                                         $
          Personnel .......................                615,242
                                                                          A . NON-FEDERAL SHARE........... $                       313,159        20.00%
          Fringe Benefits................       $          151,198
                                                                           B. FEDERAL SHARE................... $                 1,252,834        80.00%
          Travel ............................   $             2,500
                                                                                              18. FEDERAL SHARE C()MPUTATION:
          Equipment ......................      $                   0      A. TOTAL FEDERAL SHARE......... ............ ............. $          1. 252,634
          Supplies .........................    $          173,995         B. UNOBUGATED BALANCE FEDERAL SHARE........ $                           158,174
          Contractual....................       $            27.333        C. FED. SHARE AWARDED THIS BUDGET PERIOD.. $                          1,094,460

          Facilities/Construction ......        $                    0    19. AMOUNT AWARDED THIS ACTION:                            $                      0
          Other.............................    $          119.328        20. FEDERAL $AWARDED THIS PROJECT
                                                                                                                                      $          2.017,305
          Direct Costs ...................       $        1,089,596       PERIOO:

          Indirect Costs.................        $         163,038        21 . AVTHORIZED TREATMENT OF PROGRAM INCOME:



                                                                                                       I
          AI        %of$                                                      DEDUCTIVE

          In Kind Contributions.......           $                   Q    22. APPIJCAI'IT EIN:            23. PAYEE EIN:         124. OBJECT CLASS:

          Total Aooroved BudQet( . .            l$        1,252,634         1·237062976-A 1              1-237062976-A1               41.51

                                                              25. FINANCIAL INFORMATION:                            DUNS: 073032765

           ORGN         DOCUMENT NO.            APPROPRIATION              CAN NO.                   NEWAMT.             UNOBUG.    NONFED %
           OGM           06SH699901               75-9/0·1637            2009 G06R023                                    J$158.1741
           OGM            06SH699902              75-9/0· 1537           2009 G06R023                                     $158,174

                                                                         26. REMARKS:          (Continued on separal& shee!s)
              Client Pop"latlon: 120.
              Numbat of Delegates; 1.
              Paid by DHHS Paymem Management System (PMSI, see attached for payment information.
              This oward is subject to Tatms and Condi1ions specilic to the Ameri can Recovery and Reinvestment Act of 2009.
              All recipients of funding "nder the Am&rican Recovery and Reinvestment Act of 2009 are tequirad to s"bmit quarterly
              rapons on the ute o f tunds.
              Information on recipient reporting can be found at FaderaiReporting.gov.
              This sward is s"bjectto the requirements ol Scalon 106 tg) of the Trafficking Victims Protection Act of 2000, as



                                                                               28. SIGNATUREIS) CERTIFYING FUND AI/AILABILITY

                                                                                      Maugarra A . Walker




         DGCM·3·786 (Rev. 86)                                                                                                                         iSHl



               NCI Response to OIG Report A -06-11-00055 August 2013                                                                                    1 o f2




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                                                        18
                                                      EXHIBIT 8 - referenced on Pa ge 1 o f NCI Respon se in I.A. I .(a), I.A.1.(b), a nd Page 3 1.8.3 .

                                                                            !.RECIPIENT                             SAl NUMBER:
                  DEPARTMENT OF HEALTH AND HUMAN SERVICES
                  ·ADMINISTRATION FOR CHILDREN AND FAMIUES                                                          PMS DOCUMENT NUMBER:
                     FINANCIAL ASSISTANCE AWARD                                                                     06SH699902

          1. AWARDING OFFICE:                                                                          3. AWARD NO.:               4. AMEMl. NO.
          OA/OGM/Reglon Vl                                                                                 06SH6999/02
          5. TYPE OF AWARD:
             SERVICE                                                                         Ameri.,.n Recovery and Reinvestment Act of 2009

          8. BUDGET PERIOD:                                  9. PROJECT PERIOD:                                10. CAT NOJCFDA:
             09/3012010         THRU                            0913012009        THRU      09/29/2011             93.708
           11. RECI'IENT ORGANIZATION:
             NeighborhOOd Cente<s, inc.




                                                            26. REMARKS:         tContln~d   !Tom previous page!
              amended 122 U.S.C. 71041.
              For rho fuP text of the award term, 90 to hnp://www.act.tms.gov/grants/award_tetm.html.
              This grant Is subject to the req uirements as set forth in 45 CFR Part 87. 

              (" •) Reflects only ledoral shore of opprovad budget. 

              AD prevfou$ terms and conditions r ema in in effect.("! Other (see foUowing remor~sl : 

              Client Population: 120 

              Numbar of Delegates: 0 


              This action authorlzas the csrrv·lorwsrd of $158,174 from 06SH6999/01 to currsnr program year 

              06SH8999/02 lor !he following, per the grantee's 3jll)lication. 


              Supplies 

              PA·R023. ~158.174. 


              These l unda incr ease the Total Federal Approvad Budget. 





           DGCM-3- 785 (Rev. 661                                                                                                ISHI       Page 2 of 2




             NCI Response to OIG Report A -06-11-00055 August 2013                                                                               2of2




Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                                                  19
~
~                                                                                                                       EXH IBIT C- referenced on Page 1 of NCI Response in l A 1 .(b )

....~
g        Neighborhood Centers, Inc.
         Breakdown of Questioned Costs - NCI deems Allowable as Head Start expense
~        A-06-11-00055
Q
~-       NOTE: Of the $102,418 in non -Head Start costs, $15,770.12 are consumables purchased for classrooms for dual enrollment
"'
~        Charter School and Head Start.
~
~
c!Q•
                                                 TRANSACTION S/
                                Posting             PAYROLL                    Expense
i5:      GIL Account            Date              DESCRIPTION                  Amount               Prog ram                                     Description
~        117-110-1-10-6415      12/31/2010      Network Interstate         $      446.46   Charter School   &   Head   Start    Staff Aprons
[        117-110-1-10-6415
         117-110-1-10-6415
                                12/31/2010
                                12/31/2010
                                                Office Depot
                                                Office Depot
                                                                           $
                                                                           $
                                                                                   68.09
                                                                                  329.78
                                                                                           Charter School
                                                                                           Charter School
                                                                                                            &
                                                                                                            &
                                                                                                                Head
                                                                                                                Head
                                                                                                                       Start
                                                                                                                       Start
                                                                                                                                School Supplies
                                                                                                                                Office Supplies
Q        117-110-1-10-6415      12/31/2010      Office Depot               $    4139.23    Charter School   &   Head   Start    Office Supplies
i
_t;;
         117-110-1-10-6415      12/31/2010      Office Depot               $    6628.56    Charter School   &   Head   Start    Supplies for Pre-K programs for CS and HS
         117-110-1-10-6415      12/31/2010      Office Depot               $       27.90   Charter School   &   Head   Start    Office Supplies
~        117-110-1-10-6415      12/31/2010      Office Depot               $       49.49   Charter School   &   Head   Start    Office Supplies
t·       117-110-1-10-6415      12/31/2010      Office Depot               $       49.49   Charter School   &   Head   Start    Office Supplies
sr       117-110-1-10-6415      12/31/2010      Office Depot               $       80.63   Charter School   &   Head   Start    Office Supplies

a_§~     117-110-1-10-6415
         117-110-1-10-6415
         117-110-1 -1 0-6415
                                12/31/2010
                                12/31/2010
                                12/31/2010
                                                Office Depot
                                                Office Depot
                                                Office Depot
                                                                           $
                                                                           $
                                                                           $
                                                                                   90.75
                                                                                  129.94
                                                                                  166.60
                                                                                           Charter School
                                                                                           Charter School
                                                                                           Charter School
                                                                                                            &
                                                                                                            &
                                                                                                            &
                                                                                                                Head
                                                                                                                Head
                                                                                                                Head
                                                                                                                       Start
                                                                                                                       Start
                                                                                                                       Start
                                                                                                                                Office Supplies
                                                                                                                                Office Supplies
                                                                                                                                Office Supplies
         117-110-1-10-6415      12/31/2010      Office Depot               $      195.34   Charter School   &   Head   Start    Office Supplies
~
~
         117-110-1-10-6415      12/31/2010      Office Depot               $      333.03   Charter School   &   Head   Start    Office Supplies
         117-110-1-10-6415      12/31/2010      Office Depot               $      335.90   Charter School   &   Head   Start    Office Supplies
~
I        117-110-1-10-6415      12/31/2010      Office Depot               $      470.56   Charter School   &   Head   Start    Office Supplies
~
......
         117-110-1-10-6415      12/31/2010      Office Depot               $      505.93   Charter School   &   Head   Start    Office Supplies
......   117-110-1-10-6415      12/31/2010      Office Depot               $    1 722.44   Charter School   &   Head   Start    Office SLIQPIIes


~
                                                                           $ 15,770.12

~




                  NCI Response toOIG Report A -06-1 1· 00055 August 2013                                                                                                   Page 1 of 1

N
c
                                                                           EXHIBIT D- referenced on Page 2 of NCI Response in I.A.2.

                                              MONTHLY.RENT PAYMENTS
                                          MONTH:            tviAY A-pr-10
                                                            Head Start Facilities




     •  c/o David Casares
                          Pay to:

    1 	 Sercorp of Houston, Inc.

        I 0700 Richmond Avenue. Suite 203
                                                          Vendor No.

                                                              2254
                                                                            Amount                           Description

                                                                           $1,743.38 / New Hori zon Head Start
                                                                                       6565 Rookjn            •1 ·, \ 1
                                                                                       1-0-000-100-900-0-90-1450
                                                                                                                                        ;'      0 iJ

        Houston, TX 77042                                                              Term 711 /2000-6/30/2020

    2 	 Sercorp of Houston, Inc.                              2254         $ 3,546.34       SER Chaner School
       clo David Casares                                                                    6615 Rookin
       10700 Richmond Avenue, Suite 203                                                     420-ll-6269-1 06-0-11
       Houston, TX 77042                                                                    Term 7/ 1/2000-6/30/2020

    3 	 GAR ASSOCIATES XIII, LLC                               1176      $1 0,734.75  Savoy      " .       ' ' .'i
                                                                                                  j ...; l '·' ·- ·
        c/o Oak Leaf Managem ent                              CAM             $31.81  6200 Savoy Ste 1200
        9555 W Sam Houston Prkwy St# 250                                 $10,766.56 / 1-0-000-100-900-0-90-1450
        Houston, TX 77099                                                             Tenn 2/ l/2006-6/30/201 1

    4 	 Childcare Council of Greater Houston                   301         $2,733.33        Angelita Fraga Day Care Center
        PO BOX 572043                                                                       209 North York Street
        Houston, TX 7725 7                                                                  420-11-6269-102-0-1 J



     •
    5 Capital Management Services 

      716 Exchange Street, Suite 700 

      Buffalo, NY 14210 

                                                              6608       ?}§
                                                                         ~,000.00
                                                                                  I
                                                                      ·. \ -:z_;::., L
                                                                      1?. --
                                                                                            Term 7/ 1/2008-7/31/2011

                                                                                              Stay Connected
                                                                                              9700 Bissonnet. Suite 2000
                                                                                    [X(' 'L, 1-0-000-100-900-11-90-1450
                                                                                                                         1·,.   J   ,   0         1




                                                                            0~      ·~ Y- \ I 1211/2008-4/30/2010
                                                                                                          t¥      ' ...., r )
    6 	 Houston Business Development, Inc                     9989         $2,989.00   Healthy Start      .i . v i ~~ b
        c/o Central Management Inc                            CAM            $747.25   5280 Griggs Road
        820 Gessner, Suite 1525                                            $3,736.25 I 1-0-000-100-900-0-90-1450
        Houston, TX 77024                                                              08/6/2009-8/31120 J4


                                                              4775
                                                                                                                              1. .. I IJ - ~
    7 	 Kingdom Builders                                                   $7,500.00 / Kingdom Builders Head Start
        6011 West Orem Street                                                          1-0-000-100-9110-0-90-1450
       Houston, TX                                                                     8/ 1/08-5/31/20 I 0

    7 	 Kingdom Builders                                      6083         $4,538.75  Kingdom Builders Early Head Start
        12401 South Post Oak, Suite 100                       CAM            $399.41  1-0-000-1 00-900-0-90-1450
        Houston, TX 77045                                                  $4,938.16/ 04/0 1/ 10-04/01 /2013    ;, ~ ~-3                ' ,.1    •;


                          /

                                                                                         /~
             '
     ~/,     . -~-;;>..-.
     I't·I;;(/(.((( /     (j/ :. / •-
                                                 '	 .
                                          ;_ /:>:~.:·~:
                                           -'Date
                                                                                           Y-z                                          ,/_;t:'
             NCI Response to OIG Report A-0&-11-00055 August 2013 	                                                      Page 1 of 1




Office of lnSJ)ector General Not~We did not include Exhibits E and F because they contain
personally identifiable infmmation.


Head Start Costs Claimed by Neighborhood Centers, Inc., in Houston, Texas (A-06-11-00055)                                                              21
~
~                                                                                                                                           EXHIBIT G- referenced on Page 3 of NCI Response in 1.8.3 .

....~
g	       Neighborhood Centers, Inc.
~        Breakdown of Uns upported Costs • NCI deems Allowable
Q	       A-06-11-00055
~-
         NOTE 1: Of the $16,173 of supp ly costs not supported by source documentation, $852.08 are supplies
"'
~
         purchased solely for Head Start.
~
~
c!Q•                                  Posting               TRANSACTIONS/PAYROLL                                    Expense
i5:      G/L Account                  Date                      DESCRIPTION                     DEBIT               Amount                                   Progra m                                   Description
~        117-110-1-10-6415            12/31/2010           Lakeshore Learning     Materials       $0.85                        0.85       Head Start                                                Classroom suppl ies
[        117-110-1-10-6415
         117-110-1-10-6415
                                      12/31 /2010
                                      12/31 /2010
                                                           Lakeshore Learning
                                                           Lakeshore Learning
                                                                                  Materials
                                                                                  Materials
                                                                                                $200.00
                                                                                                $200.00
                                                                                                                             200.00
                                                                                                                             200.00
                                                                                                                                          Head Start
                                                                                                                                          Head Start
                                                                                                                                                                                                    Classroom supplies
                                                                                                                                                                                                    Classroom supplies
Q        117-110-1 -10-6415           12/31 /2010          Lakeshore Learning     Materials     $204.83                      204.83       Head Start                                                Classroom supplies
i
_t;;     117-110-1-10-6415            12/31 /2010          Office Depot                          $13.61                       13.61       Head Start                                                School Suppl ies
         117-110-1-10-6415            12/31 /2010          Office Depot                         $232 .79                     232.79       Head Start                                                School Supplies
~
t·                                                                                                              $            852.08
sr
~        NOTE 2: Of the $16,173 of supp ly costs not supported by source documentation, $2,549.41 are consumables for dual enroll ment
a
_§
         of Charter School and Head Start programs.

                                      Posting               TRANSACTIONS/PAYROLL                                    Ex pense
~        G/L Account                  Date                      DESCRIPTION                     DEBIT               Amount                                   Program                                    Description
~        117-110-1-10-6415            12/31/2010           Ace Mart Restaurant Supply           $883.49             883.49                Charter School &                Head      Start           Food Service Equip
~
I        117-1 10-1-10-6415           12/31 /2010          Network Interstate                   $446.50             446.46                Charter School &                Head      Start           Staff Aprons
~
......   117-110-1-10-6415            12/31 /2010          Office Depot                       $1 ,1 39.48         1,139.48                Charter School &                Head      Start           School Supplies
......   117-1 10-1-10-6415           12/31 /2010          Qfficer Depot                      __f?j}_.§l~            79.98                Charter School &                Head      Start           Offi~~_S_up_pli_es_ _

~
         - - - - - - - - - - - - - - -------------------                                                    -       ------    ----------------- - - - - - - - - - - - - - - - - - - - - - - - - -

                                                                                                                $ 2,549.41
~
                                                                                                                $ 3,401.49 Allowable




N                     NCI Response to OIG Report A-06-11-00055 .AI.Igust 2013 	                                                                                                                         Page 1 of 1
N
